HHS/OIG, Audit - "Review of Separately Billed Composite Rate
Laboratory Services Under the Medicare End Stage Renal Disease Program at
Caritas St. Elizabeths Medical Center," (A-01-07-00506)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of Separately Billed Composite Rate Laboratory Services Under the Medicare End
Stage Renal Disease Program at Caritas St. Elizabeths Medical Center," (A-01-07-00506)
October 5, 2007
Complete Text of Report is available in PDF format (916 kb).
Copies can also be obtained by contacting the Office of Public Affairs at
202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to
determine whether Caritas St. Elizabeth's Medical Center (the Hospital)
billed Medicare in accordance with Medicare requirements for laboratory tests
provided to end stage renal disease (ESRD)
beneficiaries during calendar years (CY) 2004 and 2005.  We found that the Hospital
did not always bill Medicare in accordance with Medicare requirements for
laboratory tests provided to ESRD beneficiaries.  Specifically, the Hospital
incorrectly billed for (1) hematology laboratory services included in the
composite rate, (2) automated multi-channel chemistry tests that did not meet
specific reimbursement requirements, and (3) ferritin tests performed beyond the
allowable frequency without medical justification.  Based on the results of a
statistical sample, we estimated that Medicare overpaid the Hospital $61,628 for
laboratory services provided to ESRD beneficiaries during CYs 2004 and 2005.
We recommended that the Hospital refund the Medicare
Program $61,628 in overpayments for CYs 2004 and 2005, identify and refund any
Medicare payments for ESRD-related laboratory services received after our audit
period that did not meet Medicare requirements and strengthen its policies and
procedures to ensure compliance with Medicare requirements.  The Hospital
agreed with our findings and recommendations.